                                     Closeout for MOO030012

    An NSF Program Director' informed us of allegations of misconduct in science he received
    from a reviewer.2 The reviewer commented that she had not been properly cited by a PI3for
    her role in the development of a probe singled out for use in his NSF proposal4, the PI
    misappropriated credit for himself and his collaborate? in regard to development of the
    probe, and the PI plagiarized material from an unpublished manuscript, which she authored
    along with two previous collaborators (1 and 2)P7 into the proposal. The reviewer also
    stated she could not gain access to the probe from collabomtors 1 and 2 and that her role in
    its development had been supported under one or more past NSF

    Although the PI did not provide the reviewer with any probe-based citations in his proposal,
    he did state that the probe was developed in collaborator 1's laboratory.1° He also
    referenced a personal communication with collaborator 2 which provides the proposal an
    acceptable connection to material from the unpublished manuscript.11 Them is no evidence
    to suggest that the PI plagiarized material into the proposal or misappropriated credit for
    himself or his collaborator in regard to the development of the probe.

NSF's jurisdiction over the alleged refusal of collaborators 1 and 2 to release the probe to
the reviewer is unconvincing because 1) NSF does not retain principal legal rights to
intellectual property developed under its grants,'2 2) NSF's expectations with respect to the
sharing of fin-,     data, or other research products may not be readily enforceable, and 3)
collaborators 1 aRd 2 did not directly receive NSF support in regard to their efforts in the
development of the probe.

This case is closed and no further action will be taken.
cc: Investigations, IG




6
7    Footnotes Redacted.




                                          Page 1of 1
